RECEIVED
Eyf-RGLADES C.K
' ZF

JUL 2.0/2020
STAFF wrfiMJi.

IN THE
SUPREME COURT OF THE UNITED STATES

FILED
JUL 2 0 2020
SUPREEMEfCnifR^fj'K

JONNIE RAVON,- PETITIONER,
vs.
MARK INCH, AND ASHLEY MOODY,- RESPONDENT(S).

ON PETITION FOR A WRIT OF CERTIORARI TO
THE FLORIDA THIRD DISTRICT COURT OF APPEAL

PETITION FOR WRIT OF CERTIORARI

JONNIE RAVON; DC# M28600
Everglades Correctional Institution
1599 SW 187th Avenue
Miami, Florida, 33194 - 2801
305-228-2000
(Phone Number) Warden

DE­

QUESTION(S) PRESENTED ,
Whether the courts below decided an important federal question in a way that
conflicts with the relevant decisions of this Honorable Court when they denied -without a hearing -- Petitioner’s petition for writ of habeas corpus based upon
manifest "injustice, request for an evidentiary hearing and incorporated
memorandum of law asserting that Petitioner’s multiple life sentences without
parole for violent offenses committed at the age of 18 violated the Eighth
Amendment of the United States Constitution.

11

LIST OF PARTIES
[ X]

All parties appear in the caption of the case on the cover page.

[ ]

All parties do not appear in the caption of the case on the cover page. A
list of all parties to the proceeding in the court whose judgment is the
subject of this petition is as follows:

m

TABLE OF CONTENTS
Description

Page

Question Presented

ii

List ot Parties
Table of Contents

iv

Table of Authorities

v

Opinions Below

1

Jurisdiction

3

Constitutional and Statutory Provisions Involved

5

Statement of the Case

7

Statement of the Facts

9

Reasons for Granting the Writ

17

Conclusion

28
INDEX TO APPENDICES

APPENDIX A,

Opinion of the State Appellate court (Third District Court of
Appeal of Florida), dated April 1,2020.

APPENDIX B,

Order from the Circuit Court of the Eleventh Judicial Circuit in
and for Miami-Dade County denying Petitioner’s motion to
vacate an illegal sentence and request for a resentencing
hearing, dated August 23, 2019.

APPENDIX C,

Order from

the Third

District Court

of Appeal denying

Petitioner’s motion for rehearing on April 23, 2020.

IV

TABLE OF AUTHORITIES CITED
Cases
Graham v. Florida,

Page
U.S.

130 S.Ct. 2011 (2010)

17

Miller v. Alabama, 567 U.S. 460 (2012)

18

Roper v. Simmons, 543 U.S. 551 (2005)

18

Solem v. Helm, 463 U.S. 277, 300-301, 103 S. Ct. 3001,77 L. Ed. 2d 637 (1983)

,22

Tison v. Arizona, 481 U.S. 137, 149, 107S. Ct. 1676, 95 L. Ed. 2d 127 (1987)

21

Workman v. Commonwealth, 429 S.W.2d 374, 378 (Ky. App. 1968)

,21

Statutes
4

Tittle 28 U.S.C. § 1257(a).
. Constitution
Eighth Amendment U.S. Const

.17

Fourteenth Amendment. U.S. Const

17

V

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment
below.
OPINIONS BELOW

[ 1

For cases from federal courts:

The opinion of the United States court of appeals appears at Appendix
__ to the petition and is
[ ] reported at

or,

[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.

The opinion of the United States district court appears at Appendix_
to the petition and is
or,

[ ] reported at

[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[X]

For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix A to the petition and is
[ ] reported at

.; or,
1

' [ ] has been designated for publication but is not yet reported; or,
[X] is unpublished.

The opinion of the Eleventh Judicial Circuit in and tor Miami-Dade
appears at Appendix B to the petition and is
[ ] reported at

or,

[ ] has been designated for publication but is not yet reported; or,
[X] is unpublished.

2

JURISDICTION
[ ]

For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was
[ ] No petition for rehearing was timely filed in my case.

[

] A timely petition rehearing was denied by the United States Court

of Appeals on the following date:

, and a copy

of the order denying rehearing appears at Appendix

[

] An extension of time to file the petition for a writ of certiorari was
(date) on

granted to and including

(date)

in Application No.__ A

The jurisdiction of this Court is invoked under 28 U.S.C. § 1254(1).
[ ]

For cases from state courts:
The date on which the highest state court decided my case was April 1,
2020. A copy of that decision appears at Appendix A.
[X] A timely petition rehearing was thereafter denied on the following
date: April 23, 2020, and a copy of the order denying rehearing
appears at Appendix C.
[

] An extension of time to file the petition for a writ of certiorari was

granted to and including

(date) on

Application No.__ A
3

(date) in

f

" The jurisdiction of this Court is invoked under 28 U.S.C. § 1257(a).

4

---- CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
AMENDMENT 6

Rights of the accused.
In all criminal prosecutions, the accused shall enjoy the right to
a speedy and public trial, by an impartial jury of the State and
district wherein the crime shall have been committed, which
district shall have been previously ascertained by law, and to
be informed of the nature and cause of the accusation; to be
confronted with the witnesses against him; to have compulsory
process for obtaining witnesses in his favor, and to have the
Assistance of Counsel for his defence.
AMENDMENTS
Bail-Punishment.
Excessive bail shall not be required, nor excessive fines
imposed, nor cruel and unusual punishments inflicted.
AMENDMENT 14
Section 1.

[Citizens of the United States.]

All persons born or naturalized in the United States, and subject
to the jurisdiction thereof, are citizens of the United States and
of the State wherein they reside. No State shall make or
enforce .any law which

shall

abridge the

privileges

or

immunities of citizens of the United States; nor shall any State

5

deprive any person of life, liberty, or property, without due •
process of law; nor deny to any person within its jurisdiction the
equal protection of the laws.

6

STATEMENT OF THE CASE
Jonnie Ravon,1 whose birth date is May 27, 1980, was arrested on
November 22, 1998, with codefendants Max Harris and Loobens Joanem on One
Count of Aggravated Battery with a firearm, Three Counts of Attempted Armed
Robbery, Four Counts of Kidnapping with the intent to commit a felony, and
Three Counts of Burglary with Assault or Battery therein while armed.
On September 18, 2000, the Petitioner was sentenced as follows:.
Count One, Aggravated battery with a firearm - 30 years; on Count Four,
Attempted armed robbery with a firearm - 15 years; on Count Five, and Six,
Kidnapping with a firearm - Life; Count Seven, Kidnapping with a firearm - Life;
Count Eight, , Kidnapping with a firearm

- Life; Count Eleven, Burglary with

assault or battery with firearm - Life.
The Third District Court of Appeals of Florida affirmed Pefitioner’s judgment
and sentence on December 12, 2001.
Petitioner has filed several motions for po.stconviction relief that have all
been denied. In 2019, Petitioner filed a petition for writ of habeas corpus based
upon manifest injustice, request for an evidentiary hearing and incorporated
memorandum of law which was denied on August 23, 2019. Petitioner appealed
the denial of his habeas corpus to the Third District Court of Appeal, and the
State appellate court per curiam affirmed it on April 1, 2020. Petitioner filed a

'Jonnie Ravon is listed in the Florida Department of Corrections website as DC# M28600 presently
housed at Everglades Correctional Institution.

7

motion for rehearing which was denied on April 23, 2020. The instant petition
follows.

8

STATEMENT OF THE FACTS
The State’s evidence at trial revealed that on November 22, 1998, at
approximately 7:30 p.m., the defendant and two accomplices forced their way
into the home of the Regis at gunpoint (T 384, 387-389). Emily Regis had stepped
outside to take out the garbage when one of'the armed men forced her inside
(T 387).

Ms Reigs’ three children, ages 11, 8 and 4, were in their bedroom

watching television (T 327, 535). Once inside the home, one of the men pointed
a gun at Emily Regis and ordered her to lie face down on the floor (T 392). While
she was on the floor, one of them sat on her armed (T 329, 392). One of the
armed men went into the children’s bedroom and brought the three children
out and made them lie on their stomachs in the living room (T 329). The three
children were then taken to an unlocked bathroom where a blanket was
placed over them (T 330). One of the men told the children not to remove the
blanket (T 333), but the suspect later removed the blanket covering from the
children (T 334). The oldest child was so scared that she urinated on herself (T
334).

The two younger children suffered asthma attacks and had trouble

breathing under the blanket, so they were unable to access their asthma
medication (T 334, 539). The children were not injured (T 354).
The men then forced Ms. Regis into her bedroom and ordered her to take
off all her clothes (T 395). One of the men threatened that she would be the
"first one to die” if she did not give them all the money in the house (T 396, 433).
The men proceeded to ransack the bedroom (T 397, 520).

9

Ms Regis was

'ordered out of the bedroom and was struck on the head with a gun by the
smallest of the men (T 404). At some point the telephone rang (T 405). One of
the men directed her to answer the phone and act like everything was okay (T
405-406). The police was on the phone and wanted her co come outside to talk
to them (T 406). Ms. Regis and the defendants then realized the police were
outside (T 408). The two co-defendants eventually left through the front door,
while Ms. Regis opened the back door for the defendant to exit the house with
nothing in his hands. (T 409). The men had been inside the house for bout 30 to
35 minutes (T 407).
None of the victims were tied up (T 551). Ms Regis also acknowledged
that she and her children were not continuously confined or restrained after the
suspects left and were free to leave her residence, but didn’t come out even
after the police told her it was safe (T 435-436).
The next day, November 23, 1998, Ms. Regis and one of the children found
two guns and a mask hidden in the kitchen (T 412-414). She called the police
who came to the house and took the guns (T 414). The police also found a small
purse or wallet (T 414).
Officer Neil Johnson testified that he was on patrol the evening of
November 22, 1198, at almost 8:00 p.m. when he was called to go to the Regis’
address (T 631, 640). Officer Johnson was assigned to a point in the perimeter
where he could view the front of the house (T 632). After an hour, two suspects
exited the front door and were arrested. The two suspects were identified in

10

----- court as co-defendants Harris and Joanem (T 636-637). Harris and Joanem did
not have a mask on them nor did they carry firearms (T 636). Officer Johnson
also testified that the victims were free to come outside their home after the
defendants were arrested, but chose not to even after the police announced
that it was safe (T 645-646); and that Ms. "Regis eventually came outside of the '
home after the defendants’ arrest but suddenly went back in (T 649, 650).
Officer Enrique Santos took a position in the perimeter where he could
watch the Regis’ backyard (T 653). According to this officer’s written report, he
arrived at 7:46 p.m. (T 655). Officer Sanfos first heard the fence rattle, observed
a black ski mask caught on the fence and a person also caught on the fence,
who fell to the ground holding a pillowcase containing a firearm (657-659). He
arrested this suspect, whom he identified in court as the defendant (T '658).
Office Santos also testified that he saw a glove on the ground around the
defendant (T 663).
Crime Scene Technician Schuhman testified that she retrieved the
pillowcase from the neighbor’s yard, a watch from the side yard, and a ski mask
from the Regis’ fence (T 688-691). Inside the pillowcase was a firearm (T 691692).

This technician found Ms. Regis' bedroom ransacked.

The house was

thoroughly searched. A knife was found in the kids’ room and a glove was found
in the kitchen (700-707). Schuhman was the only one responsible for processing
the Regis’ house (T 709).

The next day Detective Block provided her with

additional evidence, including another firearm, a black ski mask, and a wallet

11

----- containing identification for Max Delva (T 710-715). Schuman entered the house
on the night of November 22 only after a SWAT team had first entered,
thoroughly searched, secured, and left the scene (T 738).
Detective Tanya Block testified that she conducted a show-up the night
of the attempted robbery and kidnapping (T 769). She testified that Ms. Regis
identified the defendant as one of the individuals who had been inside the
house (770), and identified co-defendant Harris as the small man who had
initially accosted her on the evening in question (T 815). The next day, before
Detective Block returned to the residence to interview the Regis, she was
advised that the Regis had found some guns in the kitchen (T 772). When she
arrived at the residence the victims pointed out the guns which the detective
impounded along with the wallet and ski mask (T 777).
Jean Regis, Ms. Regis' husband, testified for the defendant (T 553). Mr.
Regis testified that he was not present at the time of the incident (T 561), but was
at this girlfriend's house although he told everyone that evening that he had
been at church (T 567-568). Mr. Regis testified that he received a phone call
from Ms. Regis at 9:30 or 10:00 p.m., which was after the police had the
defendants in custody (T 562). Mr. Regis owned a gun that he at time hid inside
his house (T 573-574).
One of the co-defendants, Max Harris a/k/a Max Delva, testified and
claimed that he had done some business with Mr. Regis in the past (T 849-851).
He claimed that on the day in question, he, the defendant and co-defendant

12

“Loobens were at Mr. Regis' home with his permission, waiting for Mr. Regis to
come back with some money that he owed from the sale of two vehicles
exported to Haiti (T 857). Harris also testified that he had left his gun and wallet in
Mr. Regis’ car the day before when they were discussing related business (T 854).
Mr. Regis was home when they arrived, but had to leave'in order to pick up the
money and bring it back to Harris (T 856-857). Harris further testified that nothing
unusual happened that evening until the police suddenly surrounded the house
with a helicopter overhead (T 859). No one had been harmed or threatened
inside the house (T 860), and they did not terrorize any of the Regis (T 863). Harris
also explained that the defendant was present only because he had washed
Loobens’ car just before Loobens drove Harris to meet Mr. Regis (T 863). After
Harris’ testimony, the defense rested its case (T 883).
The defendant moved for judgment of acquittal on all charges after the
State rested its case and renewed it at the end of the defense's case (T 830-831,
883-884). The defendant specifically moved for judgment of acquittal on all the
kidnapping charges based on the lack of evidence that the Regis were
continuously confined for a kidnapping conviction under the State's alternate
theory of kidnapping with the intent to commit a felony, as a matter of law (T
831-843). The trial court denied the motion (T 842-843, 886-887).
During closing arguments, the parties maintained their respective positions
about the case.

The defendant’s position was consistent with co-defendant

Harris’ testimony, that they were invited into the victim' residence to simply

13

receive a debt owed by Mr. Regis to Harris for his purchase of two cars exported
to Haiti; that none of the Regis were threatened, assaulted, confined or
restrained in any way; that the Regis conspired against the defendants in
attempt to absolve Mr. Regis’ debt; that the inconsistencies in the Regis’
testimonies rendered such unreliable; and that the SWAT team’s failure to find
any weapon or incriminating evidence after an immediate and thorough
search of the victims’ residence-all created a reasonable doubt for the
defendant’s acquittal of all charges (T 897-907, 946-985, 999-1006). In its closing
arguments, the State conceded that the police were shoddy in their
investigation, but disputed the fact that the Regis’ testimonies were concocted;
and argued its testimonial position on the kidnapping counts that the
defendants entered the Regis' residence uninvited, terrorized then, and held
them captive incidental to the attempted robbery (T 908-938, 985-999).

The

State did not assert that the Regis were tied up or remained confined upon the
suspects’ departure. Id. Although the State disputed the defense’s opinion that
the Regis concocted their version of the events, it acknowledged that Mrs. Regis
and the children voluntarily remained in the house for about 30 minutes after the
defendants left (T 989, 992).
The Court subsequently instructed the jury, in pertinent part, as follows:
“THE COURT: ... Before you can find the defendants guilty of kidnapping with a
weapon the State must prove the following three elements beyond a
reasonable doubt;

14

Number one, Max Harris, also known as Max Delva, Loobens Joanem and
Jonnie Ravon forcibly secretly or by threat confined, and/or abducted, and/or
imprisoned Emily Regis, and/or K.R., the older daughter...
In order for kidnapping to be confinement, and/or abduction, and/or
imprisonment, it must be slight, inconsequential or merely incidental to the
[underlying] felony.’’(T 1022-1023).
A general verdict on all counts, including the kidnapping charges, was
submitted to the jury (T 1037-1041).
Subsequently, the jury returned a verdict finding the defendant and both
of his co-defendants guilty of all seven felony counts charged in the Amended
Information (T 1051-1054). The only exception was on the aggravated battery
count, for which Loobens was convicted of a lesser battery charge (T 1052). The
Court adjudicated the defendant guilty on all counts (T 1059-1960).
The defendant was then sentence to five life terms of imprisonment, three
of them consecutive. In addition, the defendant was sentenced to consecutive
prison terms of thirty and fifteen years (T 1100).

During sentencing, the

defendant reminded the court of the State’s earlier plea offer at 2 years
imprisonment followed by 5 years probation he was willing to accept; its
substantial disparity to the sentence at bar; and the relative unfairness of such
harsher sentence (T 1090-1092, 1100).

In response, the court dismissed the

defendant’s complaint by simply stating that “it's my duty” to impose such

15

'sentence [T 1100). The Petitioner, Jonnie Ravon was 18 years of age at the time
of the above stated offenses.

16

REASONS FOR GRANTING THE PETITION
The lower courts’ decisions erred in failing to correct unconstitutional
sentences, where the Petitioner was sentenced to life without parole for multiple
offenses committed when the Petitioner was 18 years of age and lacked the
moral culpability of an adult. The lower courts’ decisions conflict with the
relevant decisions of this Honorable Court in Roper2, Graham3, and Miller4. This
case is a timely opportunity to correct an injustice. Additionally, the decision
below is erroneous, and the issue that it addresses is important.
I. The State court erred in denying the Petitioner’s
petition for writ of habeas corpus based upon
manifest injustice, request for an evidentiary
hearing and incorporated memorandum of law
asserting that Petitioner’s multiple life sentences
without parole for violent offenses committed at
the age of 18 violated the Eighth Amendment of
the United States Constitution, where science has
proof

that young

adults should

be treated

differently as well.
The United States Constitution bars “cruel and unusual punishment.” U.S.
Const. Amend. VIII. This provision is applicable to the States through the due
process clause of the Fourteenth Amendment. U.S. Const. Amend. XIV. Multiple
sentences of life imprisonment without any possibility of parole (“LWOP”) for a

2 Roper V. Simmons, 543 U.S. 551 (2005)
Graham v. Florida, __ U.S.___, 130 S.Ct. 2011 (2010)
4 Miller v. Alabama,___U.S.___, 132 S.Ct. 2455 (2012)

17

young'adult who was eighteen years old at the time of his offenses are cruel
and unusual.
In 2005, the United States Supreme Court held that the Eighth Amendment
of the United States Constitution prohibits the death penalty for crimes
committed by juveniles, meaning any person under the age of 18. See Roper v. ~
Simmons, 543 U.S. 551 (2005).
In 2010, the United States Supreme Court held that the imposition of a life
sentence without parole to a juvenile for non-homicide offenses is prohibited by
the Eighth Amendment of the United States Constitution. See Graham v. Florida,
560 U.S. 48 (2010). In the instant case, the Petitioner is serving multiple life
sentences for non homicide offenses that occurred at the age of 18, not too far
from being a juvenile.
In 2012, this Honorable Court prohibited mandatory sentences of life
without parole for homicide juvenile offenders. See Miller v. Alabama, 567 U.S.
460, 132 S. Ct. 2455, 183 L. Ed 2d 407 (2012) which cited Graham, and Roper,
supra. Now, the age of eighteen for a juvenile offender as set forth in Miller,
supra, should be extended to 20 based on the reasoning in Roper, Graham, and
Miller, the latest case, stating that it is unconstitutional to sentence a juvenile
offender to life for a homicide offense. In the same way, Petitioner’s multiple life
sentences

for

nonhomicide

offenses

unconstitutional as well.

18

committed

at

the

age

18

are

:
I

J

i

}

• 1

\

l'

3

)

!

The Petitioner's multiple life sentences on the above stated convictions
violate the Eighth Amendment of the United States Constitution and Florida’s
prohibition against cruel and unusual punishment, Article I, Section 17 of the
Florida Constitution.
The Petitioner submits to this Honorable court that' this is the'type of'case
where the Petitioner’s young age (18) at the time of the offenses should be
taken into consideration in assessing whether a true manifest injustice occurred
based on the Petitioner’s lack of moral culpability as it has been established by
the field of neuroscience and decisional law from the United States Supreme
Court as well as Florida law.
The American Academy of Child and Adolescent Psychiatry declared
that the age of 18 does not have any. significant meaning when it comes to
defining a minor as an adult because young offenders who commit their
offenses all the way until the mid 20’s have the intellectual capacity of an adult
but lack the emotional and social capacity of a mature person.
Based on the above referenced facts and law, the Petitioner’s multiple life
sentences without parole on the above stated offenses committed at the age
of 18 amounts also to virtually a death sentence.
The Petitioner’s life sentences are in conflict with the holding in Roper and
Graham, supra and the latest assessment of neuroscience declaring that young
adults up to the mid 20’s experience a lack of self control that is responsible for
the age of crime reaching its highest point at such age among most

19

communities in the United States. The Petitioner submits to this Honorable Court
that scientists have declared that young adult offenses are the result of
developmental immaturity and thus young adults should be treated differently in
the criminal justice system. See 2011 report from the American Academy of
Child and Adolescent Psychiatry. See also Adolescence Brain'Development and
Legal Culpability, American Bar Association, Juvenile Justice Center 1-3 (Jan.
2004). In addition, Dr. Ruben C. Gur, Director of the Brain Behavior Laboratory at
the Neuropsychiatry Section of the University of Pennsylvania, School of
Medicine, stated at the United States Supreme Court in 2002 that “the evidence
now is strong that the brain does not cease to mature until the early 20’s in those
relevant parts that govern impulsivity, judgment, planning for the future,
foresight of consequences, and other characteristics that make people morally
culpable.” Ruben C. Gur, Declaration of Ruben C. Gur, Ph. D., Patterson v.
Texas, Petition for Writ of Certiorari to the United States Supreme Court (2002).
The Petitioner asserts that as the above-stated facts show that a young
person

brain

continues

to

mature,

past

of the

age

of twenty,

it is

unconscionable to apply multiple life sentences without parole to a Defendant
who was 18 years of age at the time the alleged offenses were committed in
this cause.
On all of the above, Petitioner states that a sentence of life without parole
serves no legitimate penological purpose when imposed on a person under 18,
it is unconstitutional. On this line, the Miller Court declared that

20

'

the ’‘distinctive attributes of youth diminish the penological
justifications for imposing the harshest sentences on juvenile
offenders, even when they commit terrible crimes. Because "'[t]he
heart of the retribution rationale' relates to an offender's
blameworthiness, " 'the case for retribution is not as strong with a
minor as with an adult.' Graham, 560 U.S., at-------, 130 S. Ct. 2011,
176 L. Ed. 2d 825 (quoting Tison v. Arizona, 481 U.S. 137, 149, 107 S. Ct.
1676, 95 L. Ed. 2d 127 (1987); Roper, 543 U.S., at 57V, 125 S. Ct. 1183,
161 L. Ed. 2d 1). Nor can deterrence do the work in this context;
because " 'the same characteristics that render juveniles less
culpable than adults' -their immaturity, recklessness, and impetuositymake them less likely to consider potential punishment. Graham, 560
U.S., at -, 130 S. Ct. 2011, 176 L. Ed. 2d 825 (quoting Roper, 543 U.S., at
571, 125 S. Ct. 1183, 161 L. Ed. 2d 1). Similarly, incapacitation could
not support the life-without-parole sentence in Graham; Deciding
that a "juvenile offender forever will be a danger to society would
require "makfing] a judgment that [he] is incorrigible-but
'incorrigibility is inconsistent with youth.' 560 U.S., at ~, 130 S. Ct. 2011,
176 L. Ed. 2d 825 (quoting Workman v. Commonwealth, 429 S.W.2d
374, 378 (Ky. App. 1968)). And for the same reason, rehabilitation
could not justify that sentence. Life without parole "forswears
altogether the rehabilitative ideal. Graham, 560 U.S., at --, 130 S. Ct.
2011, 176 L. Ed. 2d 825. It reflects "an irrevocable judgment about an
offender's value and place in society, at odds with a child's capacity
for change. Ibid.

Miller v. Alabama, 183 L. Ed. 2d at p. 420. (Emphasis added).
Moreover, from the above stated analysis, the Miller Court expressed that
Graham concluded establishing that life-without-parole sentences, like capital
punishment, violates the Eighth Amendment when imposed on young adults. To
be sure, Graham's flat ban on life without parole applied only to nonhomicide
crimes, and the Court took care to distinguish those offenses from murder,
based on both moral culpability and consequential harm. See id., at --, 130 S.
Ct. 2011, 176 L. Ed. 2d 825. Miller v. Alabama, 183 L. Ed. 2d at p. 419. The Miller
Court also noted that “none of what it said about young adults-about their

21

"distinctive ~’(and transitory) mental traits and environmental vulnerabilities-is
crime-specific. Those features are evident in the same way, and to the same
degree, when (as in both cases here) a botched robbery turns into a killing. So
Graham's reasoning implicates any life-without-parole sentence imposed on a
young adult, even as its categorical bar relates only to nonhomicide offenses."
Miller v. Alabama, 183 L. Ed. 2d at p. 420. The Graham and Miller’s reasoning
applies to Petitioner’s life sentences without parole.
The Miller Court declared that youth was an important matter in
determining the appropriateness of sentencing a young adult to a lifetime of
incarceration without the possibility of parole. Miller v. Alabama, 183 L. Ed. 2d at
p. 420. The Miller opinion built upon the rulings in Roper and Graham establishing
that an offender’s age is relevant to the Eighth Amendment, and criminal
procedure laws that fail fo take defendants' youthfulness into account at all
would be flawed. Miller v. Alabama, 183 L. Ed. 2d at p. 421.
Miller relied on Graham to affirm fhat a sentence of life without parole on
a young adult share some characteristics with death sentences that are shared
by no other sentences. 560 U.S., at

130 S. Ct. 2011, 176 L. Ed. 2d 825.

Imprisoning an offender until he dies alters the remainder of his life "by a
forfeiture that is irrevocable." Ibid, (citing Solem v. Helm, 463 U.S. 277, 300-301,
103 S. Ct. 3001, 77 L. Ed. 2d 637 (1983)). And this lengthiest possible incarceration
is an "especially harsh punishment for a [young adult], because he will almost
inevitably serve "more years and a greater percentage of his life in prison than

22

~an adult offender.” Graham, 560 U.S., at

, 130 S. Ct. 2011, 176 L. Ed. 2d 825.

Miller v. Alabama, 183 L. Ed. 2d at p. 422. Research further bears out the many
ways in which lengthy adult sentences - especially life sentences - work against
a youth’s rehabilitation. Understandably, many young adults sent to prison fall
into despair. They lack incentive to try to improve their character or skills for
eventual release because there will be no release. Indeed, many young adults
sentenced to spend the rest of their lives in prison commit suicide, or attempt to
commit suicide. See Human Rights Watch, The Rest of Their Lives: Life without
Parole for Child Offenders in the United States 63-64 (2005), http: See also,
Wayne A Logan, Proportionality and Punishment: Imposing Life Without Parole
on Juveniles, 33 Wake Forest L. Rev. 681, 712, nn. 141-47 (1998) (discussing the
"psychological toll" associated with LWOP, including citations to cases and
sources suggesting that LWOP may be a fate worse than the death penalty).
Thus, a life sentence without parole for a young adult is antithetical to the goal
of rehabilitation.
The Petitioner submits to this Honorable Court that this is the type of case
where the Petitioner’s young age (18) at the time of the offense should be taken
into consideration in assessing whether a true injustice occurred.
On the above stated facts, arguments and law, it is submitted to this
Honorable Court that the lower courts erred in not ruling that Petitioner’s life
sentences without parole for offenses committed at the age of 18 were in
violation of the United States Constitution.

23

■Additionally, the Petitioner submits that the evolving of the juvenile laws
up to this point is consistent with the Florida Legislature understanding that
young adults under 21 years of age should be treated different from adults.
Florida Youthful Offender Statute states that it is the “intent of the Legislature to
provide an additional" alternative to be used in the discretion'of'the'Courtwhen
dealing with offenders who have demonstrated that they can no longer be
handled safely as juveniles and who require more substantial limitations upon
their liberty to ensure the protection of society.” Section 958.021, Florida Statute
(2016).
Based on the above legislative intent, Section 958.04, Florida Statute,
authorizes the Court to sentence as a youthful offender any person:
•

Who is at least 18 years of age and who has been transferred for
prosecution to the criminal division of the Circuit Court pursuant to
Chapter 985;

•

Who is found guilty of or who has tendered, and the Court has
accepted a plea of nolo contendere, or guilty to a crime that is
under the laws of this State, a felony if the offender is younger than
21 years of age at the time the sentence is imposed;

•

Who has not previously been classified as a youthful offender under
provisions of this act; and

•

Who has not been found guilty of a capital or life felony.

24

In—addition, Section

958.11,

Florida

Statute authorizes

the

Florida

Department of Corrections to classify as a youthful offender any person:
Who is at least 18 years of age or who has been transferred for
prosecution to the criminal division of the Circuit Court pursuant to
Chapter 985;
Who has not been previously been classified as a youthful offender
under provisions of this act;
Who has not been found guilty of a capital or life felony;
Whose age does not exceed 24 years; and
Whose total length of sentence does not exceed 10 years.
In regards to the above stated Florida Statutes, the Petitioner points out
that the Legislature is aware that the youthful offender is not fully developed
mentally until after the age of 24. On this line, although the youthful offender
statute excludes youthful offenders for being treated as such on capital and life
felony offenses, the Petitioner's conviction in this case should be treated as what
he was, a minor; all based on new research on neuroplasticity, and United
States Supreme Court law.
Furthermore, the Petitioner submits that Section 958.11(6), Florida Statute,
authorizes the Department to assign inmates 20 or younger (except capital or
life felons) to youthful offender facilities, if the Department determines that the
inmate’s mental or physical vulnerability would substantially or materially
jeopardize his or her safety in a non-youthful offender facility.
25

Again, the above stated Florida laws show that the State is aware by its
own observations and rules even prior to recent developments in law that
‘young adults under 25 years of age possess all the distinctive developmental
characteristics of juvenile offenders and therefore, they should be treated
differently when compared to adult offenders. ~
On the above stated facts, arguments and law, it is submitted to this
Honorable Court that the trial court erred in not ruling that Petitioner’s multiple
life sentences on a person who was 18 years of age at the time of his offenses
were in violation of the State and Federal Constitutions.
In sum, the consideration of the Petitioner's case via the instant petition
gives this Court an opportunity to consider the diminish culpability of the
Petitioner as a young adult in an effort to shape with forgiveness a nation more
aware of a human disability; otherwise it would result in a manifest injustice.
Therefore, on all of the above, this Honorable Court should reverse because the
lower courts failed the Petitioner in not correcting a manifest injustice.
II. The Question Presented is Important.
Petitioner is presenting an important Federal question of constitutional
dimension in which the lower courts did not reasonably extend the standard
prescribed by this Court in Roper, Graham, and Miller, supra, appropriately to
the facts of the Petitioner’s case. Petitioner affirmatively asserts that this case
would have had a different outcome if the lower court had conducted an
evidentiary hearing to determine whether the decisions of this Honorable Court

26

in Roper, Graham, and Miller, supra, could be extended to young adults
offenders serving life without parole available to them. There is no doubt that an
evidentiary hearing on the question presented in this petition would have
resulted in the trial court finding that the same factors used to grant relief in
Roper, Graham, and Miller, supra, were present in the instant'case. _
In this case, this Honorable Court should set a new precedent requiring
that cases like the Petitioner’s be set for an evidentiary hearing to determine
whether the appropriate sentences were imposed on a juvenile offender.
Finally, review of the decision below is important because while this Court
has already provided a tremendous service to the cause of treating juvenile
offenders serving life sentences without parole this Court's duty is not finished.
Young adult offenders who committed their offenses at the age of eighteen,
and were sentenced to life without parole are suffering the same injustice as
juveniles serving a life sentence without parole. Therefore, this honorable Court
should afford similar treatment based upon judicial precedents already set by
this Court. Anything less than this, would be a disservice to a class of offenders
who this Honorable Court has already determined lack a fully developed
cognitive ability to weigh the consequences of their actions and make rational
decisions.
In sum, lower courts across this nation would benefit greatly from this
Court’s input on an issue like Petitioner's. Moreover, a decision in this case would
no doubt bring more justice to the young adult cause of this country and

27

-

underscore how awesome the Constitution of this great country, the United
States of America, is. Therefore, this Court should grant the petition.
CONCLUSION

The Petitioner respectfully prays that this Honorable Court grants his
petition for a writ of certiorari.

Respectfully submitted,

Jonnie Ravon; DC# M28600
Everglades Correctional Institution
1599 SW 187th Avenue
Miami, Florida, 33194 - 2801
305-228-2000
(Phone Number) Warden

Date:

28

